No. 20-1534

 

 

IN THE
Supreme Court of the United States

PATRICK DOUGHTY AND RANDY SEVERANCE,

Petitioners,
ve

STATE EMPLOYEES’ ASSOCIATION OF NEW HAMPSHIRE,
SEIU Loca. 1984, CTW, CLC,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

BRIEF AMICUS CURIAE OF
FREEDOM FOUNDATION IN
SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,522 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

J declare under penalty of perjury that the foregoing is true and correct.

Executed on June 3, 2021.

 

Wilson-Epes Printing Co., Inc.
